                                                        National Railroad Passenger Corporation
                                                        Office of Inspector General
                                                        10 G Street N.E.
                                                        Washington, DC 20002




For Immediate Release – June 25, 2010


AMTRAK INSPECTOR GENERAL ANNOUNCES SENTENCING IN FRAUD CASE

Amtrak Inspector General Ted Alves, in conjunction with United States Attorney Zane David
Memeger of the Eastern District of Pennsylvania, announced today the sentencing of George
Susini, a former Amtrak contractor.

Susini was sentenced as a result of his receipt of stolen Amtrak refund credits which had been
illegally posted to his personal credit cards. During his sentencing, he admitted to having
received the credits which he spent to maintain a lifestyle that he could not afford. Susini was
sentenced to five years probation, a fine of $3,000, and the payment of restitution in the amount
of $72,487 back to Amtrak.

Amtrak Office of Inspector General (OIG) investigators James Harper, Kyle Sheluga, and
Michael Mullen conducted the investigation. The case was prosecuted by Assistant U.S.
Attorney Floyd J. Miller of the U.S. Attorney’s Office for the Eastern District of Pennsylvania.


Contact: Bret Coulson
Tel: 202-906-4134
E-Mail: Bret.Coulson@AmtrakOIG.gov

To learn more about Amtrak OIG visit www.AmtrakOIG.gov or Amtrak at
www.Amtrak.com
